 DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General


            Progress in Developing 

                      the 

            National Asset Database 





   Office of Inspections and Special Reviews

OIG-06-40                               June 2006
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                          June 20, 2006

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibility to promote economy, effectiveness, and efficiency within the department.

This report assesses the actions DHS has taken to identify and organize the nation’s critical
infrastructure and key resources in the National Asset Database. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations have been developed to the best knowledge available to the OIG, and have
been discussed in draft with those responsible for implementation. It is our hope that this report will
result in more effective, efficient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of this report.




                                              Richard L. Skinner 

                                              Inspector General 

Contents 


Executive Summary .............................................................................................................................. 1 


Background ........................................................................................................................................... 2 


Results of Review ................................................................................................................................. 5 


           Identification and Collection of Critical Infrastructure and Key Resource Information .......... 5 


           Concerns About State-Identified Assets ................................................................................... 9 


           Prioritizing the National Asset Database ................................................................................ 16 


Enhancing Prioritization Capability.................................................................................................... 18 


Recommendations............................................................................................................................... 21 


Management Comments and OIG Analysis ....................................................................................... 21 



Appendices
     Appendix A:             Purpose, Scope, and Methodology .......................................................................26 

     Appendix B:             Preparedness Response to OIG ............................................................................28 

     Appendix C:             Roles and Responsibilities within NIPP Risk Management Framework .............35 

     Appendix D:             Critical Infrastructure and Key Resource Sectors ................................................41 

     Appendix E:             Guidelines for Identifying National Level Critical Infrastructure and Key 

                             Resources .............................................................................................................42 

     Appendix F:             Critical Infrastructure/Key Resource Totals By State..........................................46 

     Appendix G:             Major Contributors to This Report.......................................................................48 

     Appendix H:             Report Distribution...............................................................................................49 





                                             Progress in Developing the National Asset Database
Abbreviations
  BZPP    Buffer Zone Protection Program
  CI/KR   Critical Infrastructure/Key Resources
  CIP-DSS Critical Infrastructure Protection-Decision Support System
  COP     Common Operational Picture
  GCOA    Gross Consequences of Attack
  HITRAC Homeland Infrastructure Threat and Risk Analysis Center
  HSA     Homeland Security Act of 2002
  HSOC    Homeland Security Operations Center
  HSPD    Homeland Security Presidential Directive
  IA      Office of Intelligence and Analysis
  IAIP    Information Analysis and Infrastructure Protection Directorate
  IP      Office of Infrastructure Protection
  LNG     Liquefied Natural Gas
  NADB    National Asset Database
  NICC    National Infrastructure Coordination Center
  NIPP    National Infrastructure Protection Plan
  NISAC National Infrastructure Simulation and Analysis Center
  NRC     National Response Center
  NSHS    National Strategy for Homeland Security
  NSPP    National Strategy for the Physical Protection of Critical Infrastructure and Key Assets
  ODP     Office for Domestic Preparedness
  OIG     Office of Inspector General
  PCCIP   President’s Commission on Critical Infrastructure Protection
  PCII    Protected Critical Infrastructure Information Program
  PDD     Presidential Decision Directive
  PMTL    Protective Measures Target List
  RAMCAP Risk Analysis and Management for Critical Asset Protection
  RMD     Risk Management Division
  SSA     Sector Specific Agency
  UASI    Urban Area Security Initiative
  USCG    United States Coast Guard
  USACE United States Army Corps of Engineers




                           Progress in Developing the National Asset Database
Executive Summary
             On December 17, 2003, President Bush released Homeland Security
             Presidential Directive No. 7, Critical Infrastructure Identification,
             Prioritization, and Protection - a national policy for federal departments and
             agencies to identify and prioritize the United States’ critical infrastructure and
             key resources (CI/KR) and to protect them from terrorist attacks. The
             Department of Homeland Security (DHS) is responsible for establishing the
             risk management framework necessary to coordinate these efforts. This
             framework requires the support of a comprehensive, national asset inventory.
             DHS calls this inventory the National Asset Database (NADB).

             DHS’ Office of Infrastructure Protection (IP) is still identifying and collecting
             CI/KR data, simultaneously populating the first-generation NADB, and
             building the next-generation NADB. As of January 2006, the NADB
             contained 77,069 assets, which are not distinguished by criticality. Only after
             IP completes risk assessments of the assets will it have actual lists of CI/KR.
             Nonetheless, the varying presence of non-critical assets - and they are difficult
             to quantify – confirms that the NADB is not an accurate representation of the
             nation’s CI/KR. In addition, the NADB is not yet comprehensive enough to
             support the management and resource allocation decision-making envisioned
             by the National Infrastructure Protection Plan (NIPP).

             IP has a substantial amount of work ahead to determine the ultimate
             disposition of the NADB’s contents and each asset’s importance to the
             country. It is working on enhancing its ability to analyze and prioritize CI/KR
             data but those efforts continue to be affected by slow development of both the
             NADB and risk assessment tools. We cannot predict when IP will have both
             the data and the analytical tools to provide a comprehensive risk assessment of
             the country’s critical infrastructure and key resources.

             We are recommending four specific actions to the Under Secretary for
             Preparedness to improve the development and quality of the national asset
             database.




                    Progress in Developing the National Asset Database

                                            1
Background
                          In 1998, President Clinton issued Presidential Decision Directive No. 63
                          (PDD-63), Critical Infrastructure Protection, which set forth principles for
                          protecting the nation by minimizing the threat of smaller-scale terrorist attacks
                          against information technology and geographically-distributed supply chains
                          that could cascade and disrupt entire sectors of the economy.1 Absent a
                          centralized authority for homeland security, federal agencies were designated
                          as Lead Agencies in their sector of expertise. The Lead Agencies were tasked
                          to develop sector-specific Information Sharing and Analysis Centers to
                          coordinate efforts with the private sector. PDD-63 required the creation of a
                          National Infrastructure Assurance Plan.

                          The present administration was reviewing this strategy when the terrorist
                          attacks of September 11, 2001, accelerated its implementation. It began to
                          adapt and develop the principles of PDD-63. Executive Orders 13228 and
                          13231 expanded the federal role as a coordinating partner for state and local
                          agencies as well as the private sector, raised the priority of physical assets as
                          distinguished from cyber assets, and organized infrastructure coordination
                          through the creation of the National Infrastructure Advisory Council, the
                          Homeland Security Council, and the Office of Homeland Security.2

                          In July 2002, the White House Office of Homeland Security released the
                          National Strategy for Homeland Security (NSHS). Protecting the nation’s
                          critical infrastructure and key assets was one of its six critical mission areas.3
                          Critical infrastructure was previously defined as “systems and assets, whether
                          physical or virtual, so vital to the United States that the incapacity or
                          destruction of such systems and assets would have a debilitating impact on
                          security, national economic security, national public health or safety, or any
                          combination of those matters….”4 The NSHS adds to this concept a concern
                          for key assets, “individual targets whose destruction would not endanger vital
                          systems, but could create local disaster or profoundly damage our Nation’s
                          morale or confidence. Key assets include symbols or historical attractions,

1
  Presidential Decision Directive 63: Critical Infrastructure Protection, May 22, 1998. Executive Order 13010: Critical

Infrastructure Protection, established the President’s Commission on Critical Infrastructure Protection (PCCIP). Federal

Register Vol. 61, No. 138, July 17, 1996, pp. 37347-37350. PCCIP fostered the development of PDD-63. 

2
  Executive Order 13228: Establishing the Office of Homeland Security and the Homeland Security Council, Vol. 66, 

No. 196, Oct. 10, 2001. pp. 51812-51817. Executive Order 13231: Critical Infrastructure Protection in the Information 

Age. Federal Register. Vol. 66, No. 202. Oct. 18, 2001. pp. 53063-53071. 

3
  National Strategy for Homeland Security, pp. viii, 29-36. 

4
  USA PATRIOT Act, P.L. 107-56 Sec. 1016(e).

                                   Progress in Developing the National Asset Database

                                                           2
                           such as prominent national, state, or local monuments and icons.”5 This
                           differs slightly from the term “key resources,” defined in the Homeland
                           Security Act of 2002 (HSA) as “publicly or privately controlled resources
                           essential to the minimal operations of the economy and government.”6 The
                           NSHS continued the concept of lead agencies—now called Sector-Specific
                           Agencies (SSAs)—but designated the yet-to-be-created DHS to coordinate the
                           strategy as well as be the lead agency for some sectors. It defined eight major
                           initiatives in protecting critical infrastructure and key assets, including
                           “[b]uild[ing] and maintain[ing] a complete assessment of America’s critical
                           infrastructure and key assets.”7

                           The HSA created DHS. Within DHS’s Information Analysis and
                           Infrastructure Protection Directorate (IAIP), the Office of Infrastructure
                           Protection (IP) assumed responsibility for assessing the nation’s critical
                           infrastructure and key resources.8 IAIP was responsible for accessing and
                           integrating information from the federal government, state, and local
                           government agencies, and private sector entities in order to “identify and
                           assess the nature and scope of terrorist threats to the homeland.”9
                           Additionally, it was responsible for developing and coordinating a
                           comprehensive national plan to secure critical infrastructure and key
                           resources. This includes assessments of risk, integrating “relevant
                           information, analyses, and vulnerability assessments… in order to identify
                           priorities for protective and support measures….”10

                           Within a month of its establishment, in February 2003, DHS took steps toward
                           developing a national plan by issuing the National Strategy for the Physical
                           Protection of Critical Infrastructures and Key Assets. This document
                           identified the leadership role of the federal government in “[t]aking stock of
                           our most critical facilities, systems, and functions…” and required DHS to:
                           (1) “[d]evelop a uniform methodology” for identifying critical assets;
                           (2) “[b]uild a comprehensive database to catalog these critical facilities,
                           systems, and functions”; (3) maintain an “up-to-date assessment of
                           vulnerabilities and preparedness across critical sectors”; and, (4) establish a

5
  NSHS p. 30. 

6
  Homeland Security Act, P.L. 107-296, Sect. 2(9). 

7
  NSHS, p. 33. 

8
  HSA, Sect. 201(d)(2) assigned responsibility for assessing CI/KR to IAIP. When DHS reorganized in 2005 and IAIP’s 

two primary components, the Office of Information Analysis (IA) and the Office of Infrastructure Protection, were split. 

IA was renamed the Office of Intelligence and Analysis, and now reports directly to the Secretary. IP retained its name 

and was moved to the Preparedness Directorate. The Assistant Secretary for Infrastructure Protection leads IP. 

9
  HSA, Sect. 201(d)(1)(A).

10
   PL 107-296, Sect. 201(d)(3).

                                    Progress in Developing the National Asset Database

                                                            3
                          multi-year approach for critical infrastructure and key asset protection to
                          “instill predictability and structure in the planning process.” 11 Developing a
                          geospatial mapping of critical infrastructure and key resources was a separate
                          but related part of the strategy.12

                          In December 2003, this over-arching strategy became policy in Homeland
                          Security Presidential Directive No. 7 (HSPD-7), Critical Infrastructure
                          Identification, Prioritization, and Protection. HSPD-7 sets forth the Secretary
                          of Homeland Security’s role in setting “uniform policies, approaches,
                          guidelines, and methodologies for integrating federal infrastructure protection
                          and risk management activities,” based on critical infrastructure for which
                          DHS, including IP, will “identify, prioritize, and coordinate the protection.” 13
                          The HSPD-7 required DHS to detail a national plan for CI/KR protection
                          within one year; DHS did not meet this deadline.14

                          The development of the National Infrastructure Protection Plan (NIPP) has
                          taken longer than expected, with an interim NIPP released in February 2005
                          and a draft version of the final NIPP made available for public comment in
                          November 2005 (as of this report, DHS had not released a final NIPP). The
                          draft NIPP draws on the key elements of HSPD-7 in its risk management
                          framework, which involves the following stages: 1) identification of critical
                          infrastructure; 2) identification and assessment of vulnerabilities;
                          3) normalization, analysis, and prioritization; 4) implementation of protective
                          programs; and, 5) measuring effectiveness. Federal, state and local, and
                          private sector entities all have a role in implementing this framework (see
                          Appendix C). The NIPP envisions a comprehensive, national inventory of
                          assets to support its framework. DHS calls this inventory the NADB.

                          The NADB is intended to be a “comprehensive catalog that includes an
                          inventory and descriptive information regarding the assets and systems that
                          comprise the nation’s CI/KR.”15 DHS is now focused on populating the first-
                          generation NADB, the national asset inventory that will support the
                          development of an informed national risk profile. The current NADB is
                          diverse and includes entries under every category of CI/KR (see Chart 1).

11
   The National Strategy for the Physical Protection of Critical Infrastructures and Key Assets, February 2003. p.ix and
p.23. 

12
   NSPP CI/KA. pp. 24. 

13
   Homeland Security Presidential Directive/ HSPD-7: Critical Infrastructure Identification, Prioritization, and

Protection, Dec. 17, 2003. 

14
   DHS also missed additional deadlines for reports on risk assessment and readiness enacted in the Intelligence Reform

and Terrorism Prevention Act of 2004, P.L. 108-458. 

15
   Draft NIPP, November 2005, Section 3.2.1, p. 29. This document is pre-decisional. 

                                   Progress in Developing the National Asset Database

                                                           4
                                            Chart 1: NADB Totals by Sector
                                                              Transportation (6,141)
                       Agriculture & Food (7,542)
                                                                        Water (3,842)
                                                                               Telecommunications (3,020)
                                                                                   Chemical & Hazardous
                       Energy (7,889)                                                Materials (2,963)
                                                                                       Emergency Services (2,420)
                                                                                        Dams (2,029)
                                                                                        Information Technology (757)
                                                                                        Banking & Finance (669)
               Public Health (8,402)                                                    Postal & Shipping (417)
                                                                                        National Monuments & Icons
                                                                                                   (224)
                                                                                        Nuclear Power Plants (178)
                                                                                        Defense Industrial Base (140)
                                                                                       Not Specified (290)
                Government Facilities (12,019)
                                                             Commercial Assets (17,327)




                  For example, the inventory includes 4,055 malls, shopping centers, and retail
                  outlets; 224 racetracks; 539 theme or amusement parks and 163 water parks;
                  514 religious meeting places; 4,164 educational facilities; 1,305 casinos; 234
                  retail stores; 127 gas stations; 130 libraries; 335 petroleum pipelines; 217
                  railroad bridges; 140 defense industrial base assets; 224 national monuments
                  and icons; and 8 wind power plants. In addition to hosting the national asset
                  inventory, the current NADB is integrating information available in various
                  DHS and other federal databases using a single portal with a common
                  interface.


Results of Review
  Identification and Collection of Critical Infrastructure and Key Resource
  Information

                  The NADB began as a small list of assets. In summer 2003, IP’s Risk
                  Management Division (RMD) (known then as the Protective Security
                  Division), which oversees the NADB program, applied gross consequences
                  and significant economic impact criteria to identify 160 nationally critical

                            Progress in Developing the National Asset Database

                                                    5
                           assets as part of Operation Liberty Shield.16 Later that year, under pressure
                           from Congress to produce a prioritized list, IP identified more assets and
                           expanded the list to 1,849.17 IP identified assets in specific sectors—
                           chemical, hazardous material, nuclear, business and finance, electric, oil and
                           natural gas, transportation, commercial, and government facilities—that it
                           determined required additional protection or mitigation against terrorist
                           attacks. It was called the Protected Measures Target List (PMTL).18
                           Subsequently, the Office of Domestic Preparedness (ODP) asked state and
                           local governments to provide critical infrastructure data as part of a state self-
                           assessment program.19 By February 2004, that data was combined with the
                           PMTL to become a national asset list of 28,368 assets. The list did not
                           adequately represent the nation’s 13 critical infrastructure sectors and 4 key
                           resources (see Appendix D).

                           In July 2004, IP initiated a data call to states and territories for critical
                           infrastructure and key resource information. Between July 2004 and July
                           2005, states identified and submitted data for 48,701 assets. States tried to
                           follow DHS’ criteria for identifying national critical infrastructure and key
                           resources, but their submissions were inconsistent and often delayed. IP
                           included every submitted asset in the NADB in order to make it as
                           comprehensive as possible. IP went to considerable effort to process, format,
                           and verify this information, even eliminating 3,846 duplicate submissions
                           between the two data calls. The NADB is considered the official database and
                           these initiatives combined generated a total of 77,069 assets (see chart 2).20
                           However, IP has access to, and is pursuing, asset information in other federal
                           and commercial repositories that it can link to the NADB, which could
                           increase the number of assets in the NADB by hundreds of thousands.




16
   Operation Liberty Shield was a comprehensive national plan to protect critical infrastructure while Operation Iraqi 

Freedom was executed overseas. IP selected the assets based on a risk assessment. The risk assessment considered sites 

that if attacked could produce consequences of national scale, primarily significant loss of life or catastrophic damage to 

the economy. Then-DHS Secretary Ridge asked governors to protect these assets. 

17
   Officials both in and out of DHS frequently referred to the “list of 1,700.” Based on feedback from States, IP

subsequently expanded the list to 1,849. 

18
   The 1,849 assets became the focus of, and a starting point for, IP’s Buffer Zone Protection Program. 

19
   Last year RMD began adding the source of each entry in the NADB. We learned late in our review that many sources 

of data were culled as part of the state assessments and to help prepare the national inventory list. Examples included 

several “DHS Lists,” the “Chemical Sites List,” “GSA Buildings,” “ME Critical Assets, Systems, and Infrastructure,” 

and “Largest Water Utilities.” 

20
   The NADB is housed at a national laboratory. 

                                    Progress in Developing the National Asset Database

                                                             6
           Chart 2: NADB Totals by Stages of Development




                    2004 Data Call
                    (IAIP) - 47,701


                                                            Liberty Shield -
                                                                  160
                                                            PMTL - 1,849
                             2003 Data Call
                             (ODP) - 26,359




Processing State Submissions Has Been Difficult

States took more than a year to compile information for 17 fields of
identification and location data on each asset to complete their submissions.
IP then needed time to resolve numerous formatting issues with the data. IP
set a deadline of October 1, 2004, to submit responses but underestimated how
much time states would require and the level of difficulty involved. Only 2 of
56 states and territories met that deadline. The timeliness of the submissions
was dictated by each state’s approach, how much it already knew about
critical infrastructure (some states did not have a database of critical
infrastructure), how it interpreted IP’s criteria, and whether there were legal
obstacles to forwarding CI/KR information on private sector assets. Some
states did not share information with DHS immediately because state
legislation prevented disclosure. It was not unusual for states to send multiple
submissions to IP, and for the content of their responses to vary.

IP hired a contractor to format and verify data for thousands of assets. It
encountered numerous obstacles. For example, states (1) submitted data in
different formats; (2) omitted facility names; (3) submitted duplicate assets
(for example, an asset located on a state line is submitted by both states); and,
(4) used inconsistent zip codes. Puerto Rico’s data had to be translated
because it was prepared in Spanish. A significant challenge was finding
       Progress in Developing the National Asset Database

                               7
                         missing information about assets. IP deemed data fields such as state,
                         address, sector, owner, owner type, phone, local law enforcement POC, and
                         latitude and longitude coordinates as critical. Officials estimated that on
                         average each CI/KR record they researched was missing information for about
                         seven fields. By December 2004, the contractor had completed research on 13
                         states. In the summer of 2005, IP hired another contractor to perform the
                         critical task of verifying the location of each asset, which it did, by December
                         2005. 21

                         Criteria for Identifying CI/KR is Improving

                         The guidance DHS gave to states for the 2003 ODP-led data call was minimal.
                         It required that states “….[T]ake immediate action to identify and increase the
                         security of critical infrastructure and key assets within your state. In selecting
                         such infrastructure you should consider any system or asset that if attacked
                         would result in catastrophic loss of life and/or catastrophic economic loss.”22
                         It also identified specific types of facilities that states should consider while
                         identifying CI/KR.23

                         IP expanded and improved upon ODP’s criteria for its July 2004 data call. It
                         sent to states the “Guidelines for Identifying National Level Critical
                         Infrastructure and Key Resources” for the 13 critical infrastructure sectors
                         and 4 key resources. The guidelines identified more categories of CI/KR and
                         accompanying parameters or subcategories (see Appendix E). For example,
                         they included subcategories such as “major banking and financial centers,”
                         “refineries with refining capacity in excess of 225,000 barrels per day,”
                         “primary medical care facilities with unique services,” “IT systems with
                         access or control points distributed on both coasts and throughout the
                         country,” and “commercial centers with potential economic loss impact of $10
                         billion or capacity of more than 35,000 individuals.” DHS kept the criteria
                         general to encourage states to submit any asset they thought to be important.

                         In August 2005, the Assistant Secretary for Infrastructure Protection approved
                         the NADB taxonomy. IP solicited input from all CI/KR sectors, and federal
                         departments and agencies made substantial contributions to its development.
21
   Several contractors have been actively involved in the development of the NADB, a gross consequences of attack
prioritization methodology, and software for accessing the NADB as well as housing the NADB and coordinating expert
panels to assess the NADB.
22
   Criteria for the selection of critical infrastructure, ODP, 2003.
23
   For example, facilities included public water systems, primary data storage and processing, chemical, major power
generation, nuclear power plants, electric substations, rail and highway bridges, natural gas and liquid natural gas
storage, and major mass transit subway systems.
                                  Progress in Developing the National Asset Database

                                                          8
                             IP officials view the new taxonomy as the driving architecture behind the
                             next-generation NADB because it standardizes the terminology that DHS,
                             sector-specific agencies, states and territories, and private industry will use to
                             categorize and subcategorize national infrastructure. It uses multiple levels of
                             detail, defines attributes of interest for each level, and notes other possible
                             categorizations for an asset. For example, the agriculture & food sector is
                             broken down into numerous subcategories including supply, processing,
                             packaging, and production, product storage, product transportation,
                             distribution, and supporting facilities. The taxonomy does not perform any
                             risk analysis; it does not assign values to the specific attribute data or
                             determine each asset’s national significance. IP has not yet applied the
                             taxonomy to categorize assets in the NADB, or shared it with the states.


       Concerns About State-Identified Assets

                             Both data calls generated an abundance of unusual, or out-of-place, assets
                             now in the NADB whose criticality is not readily apparent. There are also
                             inconsistencies when comparing state-by-state asset totals. Furthermore, the
                             NADB indicates 32,631 of its assets are not nationally significant,
                             outnumbering the nationally significant assets 3 to 1. While it is not IP’s
                             intent at this stage to specifically assign criticality or identify the most critical
                             assets—it is still focusing on collecting data to develop the national asset
                             inventory—their presence complicates efforts to develop a useful, first-
                             generation database. Ambiguity about what constitutes a CI/KR could lead to
                             inefficient use of limited homeland security resources.24

                             IP officials share our concern about the quality of the NADB and whether
                             DHS is directing resources to the most significant CI/KR. IP officials believe
                             it is essential that the NADB retain any asset that could be a terrorist target in
                             order for it to properly support the NIPP. IP asked states to identify their
                             nationally significant assets but at the same time did not discourage them from
                             submitting any asset. This information will help with the national risk profile
                             as well as provide the capability to map threat data against critical
                             infrastructure in a geospatial environment. Testifying before Congress, the
                             former Under Secretary for IAIP remarked, “We take the intelligence that we
                             get day-to-day and we share it from IA to IP, so we track, or what we call
                             map, the intelligence against the 1,700 [assets] …and then broadly speaking,


24
     Congressional Research Service: Critical Infrastructure and Key Assets: Definition and Identification, October 2004.
                                      Progress in Developing the National Asset Database

                                                              9
                           across this larger database of 28,000 sites.”25 IP will gather additional
                           information on those assets it determines to be nationally significant. Per the
                           NIPP, examples of this information include vital system components,
                           dependencies and interdependencies, existing protective measures, worst
                           reasonable case consequences, and quantitative consequence analysis.

                           Out-of-place assets make resource allocation decisions more challenging;
                           every possible target is not going to rise to the level of national significance.
                           IP plans on filtering those assets from the NADB with the individual analyses
                           for each program or sector. However, having more assets may obscure
                           desired data, making such prioritizations more difficult. Additionally, assets
                           that will never be used in an analysis will have to be filtered out repeatedly.
                           Both of the department’s recent data calls generated many assets now in the
                           NADB whose national significance is questionable and IP might waste time
                           and resources trying to prioritize them.

                           State Responses to Criticality Question Were Inconsistent

                           DHS also requested states to designate those assets that “met national level
                           criteria.” In deciding which assets to submit, states had considerable latitude
                           in interpreting what DHS meant by a nationally critical asset. States assessed
                           potential catastrophic loss, economic impact, public confidence or national
                           symbolism, and replaceability to identify the assets. The NADB currently
                           shows that 11,018 assets (14 percent) rise to the level of nationally significant,
                           while 32,631 assets (42 percent) do not. The question of national significance
                           is undetermined for another 33,419 assets (43 percent).26 IP officials
                           acknowledge that many assets will never be analyzed in depth or used to
                           support any program activity.

                           Some states submitted assets that they knew were critical to the state but
                           were not sure about their national importance, and some did not. States that
                           adopt an all-hazards approach to infrastructure protection consider schools
                           as critical to the general public’s safety during a natural disaster because
                           they function as emergency shelters. However, states did not consistently
                           submit schools because they did not know whether they warranted inclusion
                           in the NADB. The lack of guidance on whether questionable categories of


25
   General Frank Libutti, testifying before the House Appropriations Subcommittee on Homeland Security on DHS 

FY2005 Appropriations, April 1, 2004. 

26
   To the best of our knowledge, the question of national significance was not incorporated into ODP’s data collection 

efforts in 2003. While these figures suggest otherwise, DHS is in the process of filling these fields for each asset. 

                                    Progress in Developing the National Asset Database

                                                           10
assets (such as schools) should be included led to significant variation in
submissions, and decreases the value of comparisons across states.

In addition, the NADB contains general categories because DHS did not
provide guidance for naming assets by level of specificity. For example,
states were not sure whether to simply identify a subway system by name, or
name each important facility or station within that system. Instead of a
specific school, some locations listed schools in general. Other generalities
include restaurants and churches. There are inherent challenges in capturing
systems and asset data simultaneously. At present, the NADB is not
structured in a way that enables it to capture information about systems.
Even if the categories above are reasonable, the NADB requires a consistent
approach listing the specific assets to be a useful tool. The NADB taxonomy
is the first step in delineating and creating a consistent approach to listing
assets, systems and networks across the SSAs and down to the local level.

Portion of NADB Populated by First Data Call Lacks Credibility

The 2003 ODP-led data call generated 28,368 assets. The presence of large
numbers of out-of-place assets taints the credibility of the data (see examples
in Table 1). The states’ unfamiliarity with identifying CI/KR, and DHS’ lack
of direction contributed to the poor quality of the data.

               Table 1: Examples of Out-of-Place Assets
                         (ODP 2003 Data Call)
      Old MacDonald’s petting zoo                             Mall at Sears
                Bean Fest                                 Nix’s Check Cashing
    Amer. Society of Young Musicians                        Trees of Mystery
             Car Dealerships                         Kennel Club and Poker Room
        Historical Bok Sanctuary                          4 Cs Fuel and Lube
               DPW Landfill                         Kangaroo Conservation Center
     Assyrian American Association                  [state] Right to Life Committee
     Association for the Jewish Blind                    [university] Insect Zoo
            Bourbon Festival                             Theological Seminary
          Jay’s Sporting Goods                        Nestle Purina Pet food Plant
                Auto Shop                                   Veterinary Clinic
             Groundhog Zoo                              Sweetwater Flea Market
           High Stakes Bingo                                   Petting Zoo
       [state] Community College                             [a] Restaurant
            Frontier Fun Park                                [a] Travel Stop
            Mule Day Parade                            Beach at End of [a] Street
         Amish Country Popcorn                      [a] Pepper and Herb Company



       Progress in Developing the National Asset Database

                              11
                           State officials had little knowledge about the first data call, and did not know
                           that it resulted in lists of assets that were included in DHS’ national asset
                           inventory. In fact, officials were repeatedly surprised to learn about the
                           existence of another batch of assets from their state in the NADB. One state
                           official remarked that the list should be deleted. DHS did not appear to have
                           communicated its intentions to add those assets to the NADB. State officials
                           said they would seek clarification from IP as to their respective total number
                           of assets in the NADB. One state official commented that he was told by
                           DHS that the data was in the NADB because DHS needed to begin preparing
                           a prioritized list of national critical infrastructure and it was going to use this
                           information if states did not adequately respond to the 2004 data call.

                           Since we began monitoring the development of the NADB, IP officials have
                           asserted that the older data was of low quality and that they had little faith in
                           it. They claimed not to know what criteria ODP used.27 We received scant
                           information detailing those criteria. However, based on the origins of the
                           data, the subjective criteria used, the process used to collect the data, the
                           states’ lack of knowledge, and in some cases denial of those lists, IP should
                           examine the data to identify those assets that other sources find insignificant.
                           It should receive cooperation from state officials, who said definitively that
                           they want to have more input on their assets in the NADB.

                           July 2004 Data Call Included Some Curious Assets

                           The July 2004 data call was significantly more organized and achieved better
                           results than the previous data call. IP provided sector-specific parameters to
                           help states identify the assets it wanted and encouraged states to submit any
                           asset they thought was important (see Appendix E). IP expected states would
                           value sectors differently, and states did arrive at different conclusions about
                           which assets, and how many, were nationally significant. Their responses also
                           varied because of a lack of understanding of critical systems on a national
                           level. States that pursued every asset thought to be a potential target may
                           have submitted assets that are not in fact nationally significant.

                           Although it generated more relevant assets, the 2004 data call included
                           noticeable out-of-place assets, especially among those assets designated as
                           non-nationally significant (see Table 2). We examined in more detail the
                           NADB’s list of assets for Florida, Illinois, Indiana, and Maryland (we visited


27
  ODP officials provided evidence that they collaborated with infrastructure protection officials during the state
assessments and both organizations prepared the criteria.
                                    Progress in Developing the National Asset Database

                                                            12
                           all but Indiana) and identified several questionable soft and hard target
                           assets.28

                               Table 2: Examples of Out-of-Place Assets From Four States
                                                     (July 2004 Data Call)
                                  Psychiatry Behavioral Center                  Order of Elks National Memorial
                                       Ice Cream Parlor                             Bakery & Cookie Shop
                                              Inn                                         Donut Shop
                                      Sears Auto Center                              Wine and Coffee Co.
                                          Sports Club                                  Casket Company
                                        Bass Pro Shop                              Muzzle Shoot Enterprise
                                      Several Wal-Marts                          Property Owners Associations
                                    Apple and Pork Festival                            Rolls Royce Plant
                                         Pepsi Bottlers                             Yacht Repair Business
                                      Anti-Cruelty Society                                Tackle Shop
                                      Elevator Company                          Center for Veterinary Medicine
                                       American Legion                                     UPS Store
                                       Heritage Groups                                    Parcel Shop
                                         YMCA Center                                        Brewery
                                        Mail Boxes Etc                                     Night clubs

                           While discussing the goals of July 2004 data call, state officials consistently
                           said that they preferred to have a manageable list of critical infrastructure
                           within their state over a larger, less accurate, and less relevant list. They
                           acknowledged concern that they showed too much restraint and underreported
                           critical infrastructure. The totals states reported support the belief that there is
                           more CI/KR information that states could have reported which would be
                           relevant to DHS. Florida officials stated that they did not submit schools for
                           the NADB, even though they serve a vital role as shelters during natural
                           disasters.

                           Data Calls Resulted in Inconsistent State-by-State Totals

                           Together, the ODP-led 2003 data call and the July 2004 data call resulted in
                           peculiar totals when comparing sectors or states. There was significant
                           variation in which CI/KR states considered important with (1) total reported
                           assets varying widely by state (the standard deviation was higher than the
                           average number of reported assets); and, (2) states reporting quirky totals in
                           particular sectors. Compared to the more risk-based considerations of the
                           Buffer Zone Protection Program (BZPP), it appears this was due to

28
  Soft targets include places for large assemblies and gatherings, e.g. stadiums and outdoor areas such as those used for
Independence Day celebrations. Hard targets are usually defined as having security on site, standoff distance, fences, or
cameras.
                                    Progress in Developing the National Asset Database

                                                           13
                           differences in reporting standards more than differences in risk.29 This is true
                           for both total assets (a complete listing is contained in Appendix F) and for
                           assets reported in various sectors. For example:

                               • 	 Indiana lists 8,591 assets in the NADB, more than any other state and
                                   fifty percent more than New York (5,687).

                               • 	 California has 3,212 assets, fewer than 7 other states including
                                   Nebraska (3,457), Wisconsin (7,146), and Indiana (8,591).

                               • 	 Vermont and New Hampshire have only 70 and 77 assets respectively.
                                   By comparison, Wisconsin and Indiana have a hundred times as many
                                   assets (7,146 and 8,591 respectively), almost all of which were
                                   submitted in the July 2004 data call.

                               • 	 There is substantial inconsistency in reporting subway systems.
                                   California lists the entire Bay Area Regional Transit system as one
                                   item, while New York lists 739 stations, and Illinois lists more general
                                   categories, such as “CTA-Train” and “CTA-Terminal.”

                               • 	 Schools submitted include colleges, high schools, elementary schools,
                                   even kindergartens and Head Start programs. Reporting varies, as
                                   Virginia totals 2,126 schools while eight states or territories list none.
                                   The national total of 4,164 reported schools represent less than five
                                   percent of the approximately 96,000 public schools in America, and a
                                   cursory review does not suggest that they were chosen based on any
                                   consistent criteria.30

                           Comparing sectors also revealed inconsistency, in both national criticality and
                           state reporting. For example:

                               • 	 Some classes of assets where national criticality needs to be
                                   determined include 1,305 casinos, 25 golf courses, 24 swimming
                                   pools, 44 recreational centers and 163 water parks. Other asset types
                                   and quantities reported included 130 public libraries, 159 cruise ships,
                                   34 Coca Cola bottlers/distributors, 244 correctional facilities, 718

29
   DHS initiated the Buffer Zone Protection Program to help address security concerns at the nation’s most critical
facilities. The program initially targeted the first 1,700 assets in the NADB. The BZPP is a local plan that aims to
extend the zone of protection out from the facility fence and into the community in order to take the operational
environment away from terrorists.
30
   Digest of Education Statistics Tables and Figures, 2004 (http://nces.ed.gov/programs/digest/d04/tables/dt04_005.asp).
                                    Progress in Developing the National Asset Database

                                                           14
                                  mortuaries, 571 nursing homes, and 3,773 malls, of which only 399
                                  met DHS’ criteria of over 1 million square feet.

                             • 	 Indiana and Wisconsin reported 77 times more agricultural assets than
                                 neighboring Illinois and Minnesota, even though Illinois and
                                 Wisconsin produce 50 percent more agricultural output with similar
                                 crops.31

                             • 	 Nebraska listed 17 times as many emergency services as neighboring
                                 Iowa.

                             • 	 Indiana lists 5,456 assets in the public health sector, or 65 percent of
                                 the sector total. The criticality of these assets, which included 417
                                 nursing homes, is not clear.

                             • 	 Illinois, home to some of the nation’s tallest buildings in its city of
                                 Chicago, listed 28 tall buildings or just two-thirds as many as the 41
                                 reported in Indiana.

                             • 	 Washington lists 65 national monuments and icons, while Washington,
                                 D.C. lists only 37.

                             • 	 New York lists only two percent of the nation’s banking & finance
                                 sector assets, ranking between North Dakota and Missouri.

                             • 	 New Mexico contained 73 percent of the information technology
                                 sector with 553 assets. The next highest state was Virginia with 68.

                         Inconsistent reporting, varying both between states and within states between
                         asset categories, makes comprehensive analysis difficult. Additional data
                         calls with clearer guidance should help states deliver comparable totals in all
                         asset categories.




31
  According to the Economic Research Service (USDA) State Data Sheets- viewed at
http://www.ers.usda.gov/StateFacts/IN.htm, http://www.ers.usda.gov/StateFacts/WI htm
http://www.ers.usda.gov/StateFacts/IL.htm, and http://www.ers.usda.gov/StateFacts/MN htm.
                                  Progress in Developing the National Asset Database

                                                         15
     Prioritizing the National Asset Database
                          As the Chairman of the House Appropriations, Subcommittee on Homeland
                          Security noted, “Without a comprehensive and current inventory of our
                          nation’s critical infrastructure and key assets and a coherent picture of threats,
                          the department’s efforts to implement the appropriate protective measures,
                          deploy the right technologies and make the right decisions about grant
                          allocations are severely hampered.”32 IP currently does not intend to create a
                          single prioritized list of infrastructure, but rather to prepare a comprehensive
                          risk analysis of CI/KR as required by HSPD-7, highlighted in the NIPP, and
                          requested by Congress. This analysis will be reflected in several, overlapping
                          grant programs.33 The NIPP’s risk management framework includes an
                          approach to integrate these prioritizations, stating “[DHS will] aggregate and
                          order assessment results to present a comprehensive picture of national CI/KR
                          risk in order to establish protection priorities and provide the basis for
                          planning and the informed allocation of resources.”34

                          Last year, the Government Accountability Office found that “DHS has begun
                          developing, but has not yet completed, a framework to help agencies and the
                          private sector develop a consistent approach for analyzing and comparing
                          risks to transportation and other sectors. Until this framework is finalized and
                          shared with stakeholders, it may not be possible to compare risks across
                          different sectors, prioritize them, and allocate resources accordingly.”35
                          Presently, the NADB enables DHS to conduct consequence-based
                          prioritization through “simple analytical normalization tools to convert risk
                          assessment results into comparable units.”36

                          IP initially prioritized the Protected Measures Target List, the upper echelon
                          list of 1,849 assets identified based on perceived threats and consequences,
                          but later determined that the ranked list was unreliable. The NADB is not
                          prioritized and is not intended to be, but rather serves as a resource for the
                          development of other prioritized lists. The NIPP states that, “Although the
                          NADB is not, in and of itself, a listing of prioritized assets, it has the

32
   Chairman Harold Rogers’ opening remarks during a hearing of the House Appropriations Subcommittee on Homeland

Security on DHS FY2005 Appropriations, April 1, 2004. 

33
   Attempts to consolidate these grant programs in order to present a more comprehensive picture of national 

infrastructure efforts under the Targeted Infrastructure Protection Program (TIPP) have not been approved by Congress. 

34
   Draft National Infrastructure Protection Plan, November 2005, p.26. 

35
   Passenger Rail Security: Enhanced Federal Leadership Needed to Prioritize and Guide Security Efforts, Highlights of

GAO-05-851, found at http://www.gao.gov/new.items/d05851.pdf. The ‘framework’ is DHS’ Risk Analysis and 

Management for Critical Asset Protection (RAMCAP) tool. 

36
   Draft NIPP, p. 37. 

                                   Progress in Developing the National Asset Database

                                                          16
                        capability to be queried in a variety of manners that can help inform…risk
                        reduction activities.”37

                        Several of DHS’ protection programs utilize information from the NADB to
                        help allocate resources. However, in light of the variation in reporting
                        between various sectors and states as well as the lack of detailed information
                        on sites, we are not confident that the NADB can yet support effective grant
                        decision-making. We learned that DHS factored CI/KR data into funding
                        decisions for several grant programs including the Urban Area Security
                        Initiative (UASI), the Port Security Grant Program, and the Buffer Zone
                        Protection Program (BZPP), but only the BZPP was directly supported by the
                        NADB. In FY2005, the NADB was used in limited support of grant decisions
                        because managers were not familiar enough with, or did not trust the accuracy
                        of, the NADB’s 77,069 assets. For UASI grants, DHS relied on other selected
                        sector data where the source was deemed more reliable and detailed, e.g.
                        known chemical plants. The Port Security Grant Program took into account
                        data from the USCG rather than the NADB. The BZPP focused on CI/KR
                        that comprised the Protected Measures Target List. In FY 2006, the NADB
                        was used to a larger extent, although not exclusively.

                        DHS has not yet accomplished its goals for the first-generation NADB. IP is
                        still building and populating the first-generation NADB to function as the
                        official repository of national-level asset information. According to the
                        NIPP, the first-generation NADB should support the following activities:
                        (1) identifying and cataloging of specific attribute information necessary for
                        risk-reduction analysis; (2) development of a comprehensive picture of the
                        nation’s critical infrastructure across all sectors; (3) use of a consequence-
                        based prioritization process; (4) integration of a geospatial capability into the
                        NADB; and (5) integration of data and results from research organizations,
                        such as work performed by the National Infrastructure Simulation and
                        Analysis Center (NISAC), through a single portal.38 The first NADB has
                        met some success in supporting the first element, but it is unclear when it
                        will be able to support the remaining elements. DHS estimates it will not
                        complete the next-generation NADB, which will fully incorporate
                        information contained in other relevant databases, for at least two more
                        years.39



37
   Draft NIPP, p. 81.
38
   Draft NIPP, p.82.
39
   Draft NIPP, p.87.
                               Progress in Developing the National Asset Database

                                                      17
                         Enhancing Prioritization Capability

                         To effectively prioritize the NADB, DHS needs to be able to objectively
                         compare each asset’s criticality. Accordingly, IP intends to establish values
                         with respect to human health and safety, economic value, iconic or symbolic
                         value, and substitutability to model the value of dissimilar assets. Weighing
                         these concerns, or normalizing assets, requires subjective determinations, for
                         example, quantifying the symbolic value of the Statue of Liberty, and would
                         require significant deliberation to develop tools to support a comprehensive
                         national risk analysis.

                         IP has several ongoing tasks that should enhance its ability to prioritize assets
                         across sectors. Specifically, IP is acquiring more and better data by
                         purchasing or licensing data, directing SSAs to identify their most important
                         assets, conducting gross consequence of attack analysis on the NADB,
                         gathering expert panels to evaluate CI/KR data in the NADB, developing a
                         standard risk assessment tool, and studying interdependencies across sectors.
                         IP also seeks to collect as much data as possible in order to help develop a
                         common operational picture (COP) via geospatial mapping of CI/KR. This
                         includes integrating consequence, vulnerability, and threat information to
                         provide a single risk analysis. By linking conditional risk with real time
                         intelligence in the National Threat Incident Database, the NADB will support
                         operational risk assessments. Analysts in DHS’ Homeland Infrastructure
                         Threat and Risk Analysis Center (HITRAC) are responsible for fusing
                         credible threat information received from the Office of Intelligence and
                         Analysis (IA) with consequence assessments and vulnerability information
                         provided by IP. HITRAC passes the results of its analysis back to IA and
                         IP.40

                         These are meaningful steps toward producing a comprehensive national risk
                         analysis, and they attest to the complexity of developing the NADB. IP has
                         been planning or working on these measures for months and we hesitate to
                         predict when DHS will have a functional and useful NADB. IP’s progress in
                         developing the NADB may affect key implementation milestones of the NIPP.

                         Acquiring Data. Significant amounts of data have already been incorporated
                         into the NADB, and as we reported earlier, there may be too many lower
                         priority assets. However, there is also concern that the NADB may have too
                         few assets in essential areas and may present an incomplete picture. IP faces
                         challenges in developing a comprehensive inventory due to both varying state
40
     Draft NIPP, p.58.
                                Progress in Developing the National Asset Database

                                                       18
                           reports and reluctance of the private sector to share proprietary information
                           due to privacy concerns. Data protection issues have hindered IP’s ability to
                           expand the NADB; most asset identification activity has depended on
                           cooperation from states and federal agencies. The private sector has concerns
                           that information provided for security purposes will expose them to
                           competitive or legal scrutiny. Sectors with significant government oversight
                           and national security concerns, such as nuclear and chemical industries, have
                           been responsive to requests for data. Entities in other sectors such as business
                           and finance, the defense industrial base, and telecommunications have been
                           less forthcoming due to concerns about sensitive information, despite the
                           creation of the Protected Critical Infrastructure Information (PCII) program.41
                           Still other sectors such as emergency services and agriculture/food are highly
                           distributed; different perspectives exist on how to best determine at-risk assets
                           in a complex system. IP continues to seek, and license where necessary, data
                           from numerous sources including its own institutional expertise, federal
                           agencies, Industry Sector Advisory Councils, commercial entities selling data,
                           and the private sector. IP is planning future data calls to states, and agencies
                           are still in the process of identifying CI/KR.

                           Top 100 Lists. In May 2005, IP solicited each federal SSA for its most
                           important CI/KR to create a consequence-driven dataset to help prioritize the
                           NADB. Not all sectors have submitted responses. As of January 2006, three
                           sectors (emergency services, information technology and agriculture/food)
                           had not responded to IP’s call for such a list. Furthermore, IP has integrated
                           only five Top 100 lists into the NADB: three sectors (national monuments and
                           icons, government facilities and postal and shipping), and two subsectors
                           (drinking water and wastewater). IP has not finished processing responses for
                           10 other sectors. The submissions IP did receive varied in their utility. Some
                           sectors have problems similar to those discussed above, including insufficient
                           detail, information withheld due to security concerns, and a poor
                           understanding of assets within a sector that cannot be reconciled with the
                           NADB taxonomy. IP will continue to work with those sectors to ensure
                           uniform and usable data as to the most important assets in each sector.

                           Gross Consequences of Attack. Led by a contractor., IP has been developing
                           several complex methodologies for conducting a consequence-based analysis
                           of a large number of targets. They are known as the Gross Consequences of



41
  The Protected Critical Infrastructure Information program solicits voluntary critical infrastructure information from
proprietors by protecting such information from disclosure.
                                    Progress in Developing the National Asset Database

                                                           19
                        Attack (GCOA) tool.42 This tool is an automated process for evaluating large
                        numbers of targets and attack modes to estimate, at a high level, the
                        consequences of terrorist attacks. IP intended to run the tool on the NADB in
                        September 2005, but flaws in the methodology and data quality concerns
                        stalled the development of the GCOA tool. These issues have now been
                        resolved, but technical concerns continue to limit wide-scale implementation.
                        At the time of our report, IP had not performed this analysis.

                        Expert Panels. IP intends to use expert panels consisting mostly of private
                        sector representatives to review and refine the NADB. IP will provide panels
                        data it has collected for each sector, including the results of gross consequence
                        of attack analysis should it become available. The panels will focus on
                        developing a methodology to measure and compare consequence by assigning
                        values to various sector segments, such as prioritizing sector operations. The
                        panels plan to review, sort, and rank all of their sector’s assets, too. Delays in
                        processing state-submitted data prevented the panels from convening last year.
                        The first expert panel met for the chemical sector in March 2006, and IP
                        intends for expert panels to have concluded for all sectors by October 2006.

                        Normalization. To develop a common risk analysis methodology that allows
                        for comparability of consequence, vulnerability, threat and risk measurements,
                        IP is developing a suite of tools called Risk Analysis and Management for
                        Critical Asset Protection (RAMCAP). RAMCAP is intended to provide asset
                        owners and operators a means to calculate the potential consequences and
                        vulnerability to an attack using a common and consistent system of
                        measurements, or the means to convert the results from prior assessments
                        performed with select approved methodologies into results that can be
                        compared to those obtained using RAMCAP methodologies. Without
                        RAMCAP, the ability to gauge an individual asset’s value or compare its
                        importance to that of another asset will remain subjective and dependent upon
                        the assessor’s personal knowledge or awareness about an asset.

                        SSAs will complete and maintain their own risk assessments and IP will
                        complete and maintain national cross-sector risk assessments. Risk
                        assessments are ongoing and IP does not envision a definitive end-date when
                        they will be complete. IP is working with the SSAs and other sector partners
                        to develop, implement, and validate RAMCAP consequence and vulnerability
                        assessment methodologies across the 17 CI/KR sectors. Assessments using
                        RAMCAP have been conducted only in some sectors, in the pilot stages of

42
  The contractor developed three GCOA tools: Methodology for Indirect Economic Loss Model, Methodology for
Casualty and Damage Models, and Hazard Methodology.
                                 Progress in Developing the National Asset Database

                                                        20
            development in other sectors, and awaiting development in still other sectors.
            Individual proprietors in other sectors are using different assessment tools,
            and IP will need to determine whether it can incorporate the results of other
            assessment tools.

            Interdependency Analysis. Understanding interdependencies is a key element
            in the future analysis and prioritization of CI/KR; the more IP understands
            interdependencies, the more it can confidently prioritize the NADB. As
            infrastructure by its nature has interconnected elements, the vulnerability of
            one asset may be dependent on another asset. These relationships require
            significant modeling and simulation to determine how cascading effects may
            create vulnerabilities. The National Infrastructure Simulation and Analysis
            Center (NISAC) is the government leader in the theoretical understanding of
            infrastructure interdependencies. IP coordinated in applying information from
            NISAC and other sources who are evaluating CI/KR. These entities have
            successfully modeled interdependencies in selected sectors independently of
            the NADB.


Recommendations
            We recommend that the Under Secretary for Preparedness:

               1. 	 Define, and systematically examine, out-of-place or “extremely
                    insignificant” assets, and determine which of those assets should
                    remain in the NADB. Consider redesignating low-value assets
                    remaining in the NADB.

               2. 	 Provide state homeland security advisors the opportunity to (a) review
                    their previously submitted assets (with the taxonomy if necessary) that
                    they believe fall within the definition of “extremely insignificant” and
                    (b) recommend to DHS whether to retain them.

               3. 	 For ongoing and future data calls, clarify the guidance states should
                    follow for what data to submit, and how DHS intends to use that data.

               4. 	 Identify and evaluate key milestones for the NADB and ensure that
                    they are accurately captured in the NIPP.




                   Progress in Developing the National Asset Database

                                          21
Management Comments and OIG Analysis
               DHS’ Office of Preparedness commented on our draft report (a copy of its
               response in its entirety is recorded in Appendix B) and we incorporated
               several specific comments by DHS into this report. Additional analysis of
               DHS’ comments and responses to the recommendations follows. Based on
               the response and additional discussions with NADB program officials, we
               modified each of our recommendations.

               General Comments

               Preparedness was concerned that the report did not accurately reflect the
               nature of criticality in the NADB, noting that the NADB is an inventory of
               assets across the nation to then be filtered to develop appropriate critical asset
               lists. It believes that criticality is not an important part of the initial inventory.

               We understand the purpose of the inventory, but believe that considering the
               relevance of questionable data is worthwhile. We concur that criticality may
               be conditional, reflecting time or other concerns, and the NADB should
               include more than just assets of obvious criticality. For example,
               Preparedness suggested that schools are essential not for infrastructure
               protection, but for additional uses in operational support. While such
               ambitious uses of the NADB may be worthwhile, they should not distract
               from the stated mission of the NADB in supporting the protection of critical
               infrastructure. It should not be a reason to reject the concept of criticality, but
               rather a reason to refine the definitions of criticality applied. We have
               modified some of the language in the report to clarify the role of the NADB in
               the process of infrastructure protection.

               Preparedness was also concerned that issues of insufficient staffing and
               funding were underrepresented in the report. We sought, and IP provided,
               some details regarding the NADB program budget. However, at the time of
               our report, we did not have sufficient information to draw conclusions
               regarding program needs. In its action plan to address Recommendation #4,
               IP should indicate whether funding shortfalls would impact its ability to meet
               certain milestones.

               Specific Comment #8

               Preparedness sought to clarify the role of the NADB as an asset inventory in
               the process of developing situational prioritized lists. Their response stated
                       Progress in Developing the National Asset Database

                                              22
                         that not only does the department not have one definitive prioritized list, but
                         also that such a list is “neither possible nor useful….” Rather, Preparedness
                         sees the NADB’s mission as supporting “a variety of asset groups for
                         programmatic focus or to answer specific questions.”

                         We recognize the distinction between the NADB as an inventory and the
                         multiple prioritized lists of CI/KR that are created using the inventory. We
                         clarified this distinction in our final report. However, we maintain that a
                         comprehensive picture of CI/KR across the entire nation’s infrastructure is
                         desired. The NIPP lists the “[p]rioritization of assets and systems across
                         sectors and jurisdictions…”43 as one of the stated goals of the next generation
                         NADB. While the NADB is used to inform programmatic analyses, a
                         maturing NADB is also essential to the development of a comprehensive
                         picture of the nation’s CI/KR.

                         While risk-based prioritization currently supports specific programs and
                         sector-specific goals, it also has value in informing overarching budget
                         priorities across CI/KR sectors. That said, we are not entirely clear as to what
                         the “comprehensive picture”44 will look like, and how DHS will interpret it to
                         make funding decisions.


                         Recommendation #1: Define, and systematically examine, out-of-place or
                         “extremely insignificant” assets, and determine which of those assets
                         should remain in the NADB. Consider redesignating low value assets
                         remaining in the NADB.

                         Preparedness perceived our original recommendation as misguided,
                         representing a misunderstanding of the nature of the NADB’s role as an
                         inventory rather than as a critical list.

                         Based on Preparedness’ response and discussions with program officials, we
                         modified this recommendation. We believe that the presence of out-of-place
                         assets still warrants management’s attention. Over the development of this
                         inventory, DHS has deferred to the judgment of the state, locality, or agency
                         about which assets they should submit for the purposes of infrastructure
                         protection, but there is evidence that these entities submitted assets for reasons
                         other than state or local criticality assessments. This has led to out-of-place
                         assets that should never have been included, and will never be used to inform

43
     Draft NIPP, p. 82
44
     Ibid
                                Progress in Developing the National Asset Database

                                                       23
a risk assessment. Without a method to clean such assets from the inventory,
time and money will be wasted to repeatedly filter out such assets for each
analysis, and perhaps more importantly, their presence undercuts confidence
in the inventory. Such out of place assets should be addressed.

IP already eliminates assets of “extreme insignificance,” although criteria for
identifying such assets have not been determined. Based on follow-up
conversations with IP, most removed assets were removed because they were
determined to not exist, but in rare instances, some assets were removed
because they were deemed to have negligible value. This suggests that IP
recognizes some value in eliminating out of place assets. We suggest that IP
more clearly define assets of “extreme insignificance.” This includes assets
that are obviously out-of-place, as were many mentioned in this review.

Recommendation #1: Unresolved - Open


Recommendation #2: Provide state homeland security advisors the
opportunity to (a) review their previously submitted assets (with the
taxonomy if necessary) that they believe fall within the definition of
“extremely insignificant” and (b) recommend to DHS whether to retain
them.

Preparedness concurred with our recommendation. IP intends to provide
assets maintained within the NADB to the respective states in the next data
call to reduce duplicate submissions. States will also have the opportunity to
identify assets that they believe not be included in the inventory.

Because IP will consider revising state assets in light of state concerns, we
modified our recommendation to better reflect IP’s plans. We agree that this
information sharing may be productive in identifying assets that may not be
relevant to the database, dependent on IP’s assessment of the assets. It is
unclear whether IP will give the same discretion to the state in removing
assets as in submitting them. As part of its action plan, Preparedness should
establish standards to guide the determination of assets.

Recommendation #2: Resolved - Open




       Progress in Developing the National Asset Database

                              24
Recommendation #3: For ongoing and future data calls, clarify the
guidance given to states that discusses what data states should consider
submitting, and how DHS intends to use that data.

Preparedness did not have the opportunity to respond specifically to this
recommendation, which we developed through subsequent dialogue with
NADB program officials. Program officials are developing improved
guidance for the next data call.

As part of its action plan, Preparedness should provide an example of
guidance for the next data call. This should include clarification of the
purpose of the NADB and the intended breadth of assets to be contained
within the NADB, to increase the consistency and comparability of state
reports.

Recommendation #3: Resolved - Open


Recommendation #4: Identify and evaluate key milestones for the NADB
and ensure that they are accurately captured in the NIPP.

Preparedness agreed with this recommendation in part. Preparedness raised
an issue with the scope of our recommendation, as completion of a
comprehensive risk analysis is not within the scope of the NADB. We agree
that such an assessment is an activity that the NADB supports, and not an
activity of the NADB program itself, and modified our recommendation
accordingly. Preparedness is skeptical that it can produce a complete
assessment, as the inventory and risk environment will continually evolve.
Preparedness did agree on the importance of developing and refining clear
milestones.

We agree that the on-going process will continue to develop key milestones.
As part of its action plan, Preparedness should provide documentation of
NADB milestones as they are incorporated into the NIPP. Preparedness
should indicate whether funding shortfalls would impact its ability to meet
certain milestones.

Recommendation #4: Resolved - Open




       Progress in Developing the National Asset Database

                              25
                          Appendix A
                          Purpose, Scope, and Methodology




                          We reviewed the ongoing development of the NADB as a result of
                          conclusions noted in our February 2004 survey report of what was formerly
                          known within DHS as the IAIP directorate.45 Our initial objective was to
                          evaluate the effectiveness and efficiency of the processes used by IP to
                          develop a prioritized list of the nation’s critical infrastructure and assets. IP
                          did not have a comprehensive, prioritized list but was actively collecting data
                          from states to help create one. During 2005, we followed IP’s progress
                          toward completing the database. We also determined to what extent the
                          database is supporting the NIPP and progressing toward a comprehensive,
                          national risk assessment capability.

                          We assessed the methodology and results of DHS’ 2004 data call to states for
                          CI/KR information, as well as data DHS collected from states as part of the
                          Office of Domestic Preparedness’ State Self-Assessment Program.46 We
                          reviewed aggregate NADB data across multiple sectors and reviewed assets
                          submitted by several states. We examined the NADB in July 2005 and again
                          in January 2006. We reviewed documentation in support of the identification
                          and selection process describing the business process. We became acquainted
                          with IP’s RAMCAP tool, as well as other agency-specific vulnerability and
                          risk assessment activity.

                           We met with IP officials, including those managing the NADB program, and
                           officials in other DHS components including the Transportation Security
                           Administration and the United States Coast Guard. We visited homeland
                           security officials in Florida, Illinois, Maryland, Massachusetts, Michigan,
                           New Jersey, South Carolina, Texas, and Virginia. We interviewed
                           representatives from the National Infrastructure Simulation and Analysis
                           Center and the National Geospatial-Intelligence Agency. We also held
                           meetings with representatives of the contractor that played a key role in
                           processing the data submitted by states as part of the July 2004 data call.

                           We conducted our review between January 2005 and January 2006 under the
                           authority of the Inspector General Act of 1978, as amended, and according to


45
  “Survey of the Information Analysis and Infrastructure Protection Directorate,” OIG-04-13, February 2004, p.24.
46
  In 2003, states and urban areas participated in an assessment process that reflected post-9/11 threats and
vulnerabilities. This second process enabled states and urban areas to refine and further develop their Homeland Security
Strategies.



                                    Progress in Developing the National Asset Database

                                                           26
Appendix A
Purpose, Scope, and Methodology




the Quality Standards for Inspections issued by the President’s Council on
Integrity and Efficiency.




        Progress in Developing the National Asset Database

                               27
Appendix B
Preparedness Response to OIG




        Progress in Developing the National Asset Database

                               28
Appendix B
Preparedness Response to OIG




        Progress in Developing the National Asset Database

                               29
Appendix B
Preparedness Response to OIG




        Progress in Developing the National Asset Database

                               30
Appendix B
Preparedness Response to OIG




        Progress in Developing the National Asset Database

                               31
Appendix B
Preparedness Response to OIG




        Progress in Developing the National Asset Database

                               32
Appendix B
Preparedness Response to OIG




        Progress in Developing the National Asset Database

                               33
Appendix B
Preparedness Response to OIG




        Progress in Developing the National Asset Database

                               34
              Appendix C
              Roles/Responsibilities within NIPP Risk Management
              Framework




Roles and Responsibilities within NIPP Risk Management Framework 





                      Progress in Developing the National Asset Database

                                             35
Appendix C
Roles/Responsibilities within NIPP Risk Management
Framework




        Progress in Developing the National Asset Database

                               36
Appendix C
Roles/Responsibilities within NIPP Risk Management
Framework




        Progress in Developing the National Asset Database

                               37
Appendix C
Roles/Responsibilities within NIPP Risk Management
Framework




        Progress in Developing the National Asset Database

                               38
Appendix C
Roles/Responsibilities within NIPP Risk Management
Framework




        Progress in Developing the National Asset Database

                               39
Appendix C
Roles/Responsibilities within NIPP Risk Management
Framework




        Progress in Developing the National Asset Database

                               40
                             Appendix D
                             Critical Infrastructure and Key Resource Sectors




                    Critical Infrastructure and Key Resource Sectors 

Agriculture and Food                          Emergency Services                          Water
    Supply Processing/                             Law Enforcement                             Raw Water Supply
    Packaging/Production                           Fire, Rescue, and Emergency                 Raw Water Transportation
    Agricultural and Food Product                  Services                                    Raw Water Storage
    Storage                                        Search and Rescue                           Water Treatment Facilities
    Agricultural and Food Production               Emergency Medical Services                  Treated (Finished) Water Storage
    Transportation                                 Emergency Management                        Treated Water Distribution Systems
    Agricultural and Food Production               Other Emergency Services                    Treated Water Monitoring Systems
    Distribution                              Information Technology                           Treated Water Distribution Control
    Agricultural and Food Production               Hardware Production                         Centers
    Facilities                                     Software Production                         Wastewater Facilities
    Regulatory, Oversight, and Industry            Information Technology Services             Regulatory, Oversight, and Industry
    Organizations                                  Internet                                    Organizations
    Other Agriculture and Food                     Next Generation Networks               National Monuments and Icons
Banking and Finance                                Regulatory, Oversight, and Industry         National Monument/Icon Structures
    Banking and Credit                             Organizations                               National Monument/Icon
    Securities, Commodities, and                   Other Information Technology                Geographic Areas
    Financial Investments                          Facilities                                  National Monument/Icon
    Insurance Carriers                        Telecommunications                               Documents and Objects
Chemical and Hazardous Materials                   Wired Telecommunications                    Other National Monuments and
    Industry                                       Wireless Telecommunications                 Icons
    Chemical Manufacturing Plants                  Satellite Telecommunications           Commercial Assets
    Hazardous Chemical Transport                   Internet                                    Business Assets
    Hazardous Chemical                             Next Generation Networks                    Community Assets
    Storage/Stockpile/Utilization/Distribut        Regulatory, Oversight, and Industry         Industrial Assets
    ion                                            Organizations                               Other Commercial Assets
    Regulatory, Oversight, and Industry            Other Telecommunications Facilities    Government Facilities
    Organizations                             Postal and Shipping                              Executive Branch Facilities
    Other Hazardous Chemical Facilities            U.S. Postal Service                         Legislative Branch Facilities
Defense Industrial Base                            Couriers                                    Judicial Buildings
    Shipbuilding Industry                          Other Postal and Shipping Facilities        Foreign Government Buildings
    Aircraft Industry                         Healthcare and Public Health                     Other Government Facilities
    Missile Industry                               Direct Patient Healthcare              Dams
    Space Industry                                 Public Health Agencies                      Low Hazard Potential Dams
    Combat Vehicle Industry                        Healthcare Educational Facilities           Significant Hazard Potential Dams
    Ammunition Industry                            Health Supporting Facilities                High Hazard Potential Dams
    Weapons Industry                               End-of-Life Facilities                      Regulatory, Oversight, and Industry
    Troop Support Industry                         Regulatory, Oversight, and Industry         Organizations
    Information Technology Industry                Organizations                          Nuclear Facilities
    Electronics Industry                           Other Healthcare and Public Health          Nuclear Power Plants
    Electrical Industry Commodities                Facilities                                  Research, Training, and Test
    Mechanical Industry Commodities           Transportation                                   Reactors
    Structural Industry Commodities                Aviation                                    Nuclear Fuel Cycle Facilities
Energy                                             Railroad                                    Radioactive Waste Management
    Electricity                                    Road                                        Nuclear Materials Transport
    Petroleum                                      Maritime                                    Deactivated Nuclear Facilities
    Natural Gas                                    Mass Transit                                Radioactive Material Users
    Regulatory, Oversight, and Industry            Pipelines                                   Radioactive Source Production and
    Organizations                                  Regulatory, Oversight, and Industry         Distribution Facilities
                                                   Organizations                               Regulatory, Oversight, and Industry
                                                                                               Organizations
                                                                                               Other Nuclear Facilities

                                       Progress in Developing the National Asset Database

                                                                41
                      Appendix E
                      Guidelines for Identifying National Level Critical
                      Infrastructure and Key Resources




On July 19, 2004, the Assistant Secretary, Office of Infrastructure Protection, sent to
State/Territorial Homeland Security Advisors via memorandum the following guidelines:


                    Guidelines for Identifying National Level

                    Critical Infrastructure and Key Resources 


                             CRITICAL INFRASTRUCTURE
AGRICULTURE/FOOD
1. 	   Distribution facilities that ship to 5 or more states.
2. 	   Food Processors with product distribution to more then 10 states.
3. 	   Producers with herd of more then 20,000 Bovine, 30,000 swine or 500,000 poultry or
       distribution to more then 10 states or production of 50,001-250,000 bushels of crops.

BANKING & FINANCE
1.     W
       	 holesale Securities/Funds Transfer Services in excess of $50B per year.
2. 	   Financial entities that provide wholesale funds or government securities transfer and
       settlement services.
3. 	   Primary dealers in the government securities market.
4. 	   Primary/Backup for the backbone computer infrastructure for stock market exchanges
5. 	   Major banking and financial centers.

CHEMICAL
1. 	  Sites that could cause death or serious injury in the event of a chemical release and have
      greater than 300,000 persons within a 25-mile radius of the facility.
2. 	  Economic impact of more than one billion dollars per day (e.g., an event impacting
      multiple sectors and cumulatively cause this amount of economic damage).

NOTE: The term “sites” includes manufacturing plants; rail, maritime, or other transport systems;
pipeline and other distribution networks; and storage, stockpile, and supply areas.

ENERGY (EXCEPT NUCLEAR POWER)
Electricity
1. 	   Major power generation facilities that exceed 2000MW and if successfully attacked would
       disrupt the regional electric grid.
2. 	   Hydroelectric facilities and dams that produce power in excess of 2000MW or could result in
       catastrophic loss of life if breached.
3. 	   Substations that are the sole-source of power to critical commercial or government facilities


                               Progress in Developing the National Asset Database

                                                      42
                      Appendix E
                      Guidelines for Identifying National Level Critical
                      Infrastructure and Key Resources




4. 	   Regional transmission coordination centers: Control centers for Regional Transmission
       Organizations, Independent Transmission Operators, and Regional Coordinators.
5. 	   Transmission substations necessary for the reliable operation of the transmission grids
6. 	   Electric substations 500Kv or larger, and substations 345Kv or larger that are part of a
       critical system supporting population in excess of one million people.

Oil & Gas
1. 	  Refineries with refining capacity in excess of 225,000 barrels per day.
2. 	  Product pipelines with a capacity in excess of 200,000 barrels per day.
3. 	  Natural gas pipelines with a capacity equal to or greater than 1 billion cubic feet per day.
4. 	  Natural Gas and liquid Natural Gas Storage (LNG) facilities.
5. 	  Major petroleum handling facilities such as pipelines, ports, refineries and terminals.

EMERGENCY SERVICES
1. 	 National Emergency Operations Centers (e.g. HSOC, NICC, NRC, USCOE, etc.)
2. 	 Operation centers responsible for receiving and disbursing National Strategic Stockpile
     Supplies at the state level, and in support of urban center distributions with populations
     greater than one million.

INFORMATION TECHNOLOGY
1.   I	 T Systems: Systems with access or control points distributed on both coasts and throughout
     the country.
2.   N	 etworks: Networks with nodes distributed on both coasts and throughout the country.
3. 	 Digital Control Systems: Control Systems with access or control points distributed on both
     coasts and throughout the country.
4. 	 Major Primary data storage and processing facilities.

TELECOMMUNICATIONS
1.   M
     	 ajor telephony hotels.
2. 	 Control centers controlling national or regional telephonic traffic.

POSTAL & SHIPPING
1. 	 Major collection, sorting or distribution centers for national or regional shipments.

PUBLIC HEALTH
1.   	Primary medical care facilities with unique services (i.e. shock trauma units) serving
     populations of greater than 250 thousand.
2. 	 Primary blood supply facilities servicing national and regional areas.
3. 	  National Stockpile and unique pharmaceutical (i.e. vaccine facilities for flu, small pox)
     facilities.

                               Progress in Developing the National Asset Database

                                                      43
                      Appendix E
                      Guidelines for Identifying National Level Critical
                      Infrastructure and Key Resources




TRANSPORTATION
Rail (Freight):
1. 	   Railroad Information Technology and Communications Infrastructure critical nodes.
2. 	   Rail tunnels and bridges or other critical assets where no practical reroute and rebuild time is
       over six months if all resources are available, rerouting results in 75% degradation of service.
3. 	   Primary entry points used to transport commercial or military shipments, which if destroyed
       would significantly impact the people, economy or national security.
4. 	   Unsecured rail yards, located within populated areas (greater than 50K), that on any given
       day, contain large quantities (greater than 5 tank cars) of poison inhalation hazard materials.
5. 	   Rail yards that if disabled would cause significant disruption of national economy.

Mass Transit (Main/Major Terminals—Subways/Bus/Rail/Cruise)
1. 	  Subways: Subway systems and supporting ventilation systems.
2. 	   Bus: Terminals located within urban centers with a population of greater than 500K or
      servicing >5K passengers daily.
3. 	   Passenger Rail: Terminals located within urban centers with a population of greater than
      500K or servicing greater than 50K passengers daily.
4.    	Cruise: Ports/Terminals located within urban centers with a population of greater than 500K
      or servicing greater than 10K passengers daily.

Maritime
1. 	  Seaports that have been designated Strategic National Defense Seaports.
2. 	  Seaports that represent the majority of imports and exports of containerized and petroleum
      cargoes.
3. 	  Seaports and facilities that service the Strategic Petroleum Reserve.
4. 	  Locks & dams critical for the operation of major inland commercial waterways.
5. 	  Harbor entrance waterway choke points that if blocked would deny port access.

Aviation
1.       Major airports (passenger and freight).

WATER
Supply
1. 	   Water treatment facilities, ground water systems (wells), water transmission systems
       (aqueducts, viaducts, pipelines, open channel) that serve populations or water reservoir
       system(s) including ground or elevated that serve populations of greater that one million
       persons.
Wastewater
1. 	   Waste water treatment facilities, wastewater collection systems and pumping systems (force
       mains) or wastewater storage system(s) that serve populations greater than one million
       persons.
                               Progress in Developing the National Asset Database

                                                      44
                      Appendix E
                      Guidelines for Identifying National Level Critical
                      Infrastructure and Key Resources




NATIONAL MONUMENTS & ICONS
1.   Monuments/icons of national significance.



                                           Key Resources
COMMERCIAL FACILITIES
  1. 	 Commercial Centers: Loss creates economic impact of greater than $10 billion or has a
       capacity greater than 35,000 individuals
  2. 	 Office Buildings
            a. 	 Height greater than 500 feet and/or of significant importance.
            b. 	 Economic impact of loss greater than $10 billion
            c. 	 Capacity greater than 8,000 individuals
  3. 	 Stadiums – Arenas: Economic impact of loss greater than $10 billion or capacity greater
       than 25,000 individuals
  4. 	 Amusement/Theme Parks: Economic impact of loss greater than $10 billion or capacity
       greater than 35,000 individuals
  5. 	 Public Institutions (Educational Facilities): Economic impact of loss greater than $10
       billion or capacity greater than 25,000 individuals
  6. 	 Hospitality Industry: Economic impact of loss more than $10 billion or capacity more than
       8,000 individuals

GOVERNMENT FACILITIES
  1. 	 Federal or state-level COOP/COG facilities

DAMS
  1. 	 High hazard dams, or dams that produce over .5 megawatts of hydropower or provide
       irrigation to agriculture greater than 10,000 acres or provide for navigation on significant
       waterways or provide flood control or locks that provide significant waterway navigational
       ability or levees that provide significant flood control that the loss of which would cause
       significant economic impact or loss of life.

NUCLEAR REACTORS AND SPENT FUEL FACILITIES




                               Progress in Developing the National Asset Database

                                                      45
                          Appendix F
                          Critical Infrastructure/Key Resource Totals By State




              Critical Infrastructure/Key Resource Totals by State

                       Number      Number Number of Assets Percentage of NADB Number of New
                      of Assets    of Assets on the NADB      (FY05) Assets    Assets resulting  Total
                       already    submitted (FY04) and the submitted that were from the NADB Number of
     State or         on NADB     on NADB NADB (FY05)        duplicates of the   (FY05) Data Assets in the
     Territory         (FY04)       (FY05)    (Duplicates) NADB (FY04) Assets       Call        Database
1    Alabama             701          39          30             76.92%               9           710
2    Alaska              552          87           4              4.60%               83          635
3    American             -            -            -               -                  -           10
     Samoa
4    Arizona             597        151             73                   48.34%           78       675
5    Arkansas            367        144              15                  10.42%          129       496
6    California         3122        737             647                  87.79%           90      3212
7    Colorado           422         872              1                   0.11%           871      1293
8    Commonwealth         -          -                -                     -             -        28
     of Northern
     Marianas
9    Commonwealth        97          33               -                     -            33        130
     of Puerto Rico
10   Connecticut        465         578             113                  19.55%          465       930
11   Delaware            51         415             11                    2.65%          404       455
12   District of        308         158             50                   31.65%          108       416
     Columbia
13   Florida            1453        688             127                  18.46%          561      2014
14   Georgia            1493         74             53                   71.62%           21      1514
15   Guam                 -           -              -                      -              -      116
16   Hawaii              92         116              6                    5.17%          110       202
17   Idaho              153         595              1                    0.17%          594       747
18   Illinois           1801        429             171                  39.86%          258      2059
19   Indiana             322        8303             34                   0.41%          8269     8591
20   Iowa                349        147              41                  27.89%          106       455
21   Kansas              631        694             342                  49.28%           352      983
22   Kentucky            774        397              48                  12.09%          349      1123
23   Louisiana           447         393             94                  23.92%           299      746
24   Maine               208         80              17                  21.25%           63       271
25   Maryland            591        1152            51                    4.43%          1101     1692
26   Massachusetts       339         477             52                  10.90%           425      764
27   Michigan            916         631             80                  12.68%          551      1467
28   Minnesota           548         65              36                  55.38%           29       577
29   Mississippi         948         100             22                  22.00%            78     1026
30   Missouri            448         261             25                   9.58%           236      684
31   Montana             248        1148             11                   0.96%          1137     1385
32   Nebraska           1389        2401            333                  13.87%          2068     3457
33   Nevada              468         157             18                  11.46%           139      607


                                    Progress in Developing the National Asset Database

                                                           46
                          Appendix F
                          Critical Infrastructure/Key Resource Totals By State




                       Number      Number Number of Assets Percentage of NADB Number of New
                      of Assets    of Assets on the NADB      (FY05) Assets    Assets resulting  Total
                       already    submitted (FY04) and the submitted that were from the NADB Number of
     State or         on NADB     on NADB NADB (FY05)        duplicates of the   (FY05) Data Assets in the
     Territory         (FY04)       (FY05)    (Duplicates) NADB (FY04) Assets       Call        Database
34   New                  -            -            -               -                  -           77
     Hampshire
35   New Jersey         610         469              175                 37.31%           294      904
36   New Mexico         533         824               9                   1.09%           815    1348
37   New York          1634        4187              134                  3.20%           4053    5687
38   North Carolina     518         227              25                  11.01%           202     720
39   North Dakota       255         537              29                   5.40%           508     763
40   Ohio              1135         875             123                  14.06%           752    1887
41   Oklahoma           290          35              20                  57.14%            15     305
42   Oregon             737         353             250                  70.82%           103     840
43   Pennsylvania       617        2298              42                   1.83%           2256    2873
44   Rhode Island       70           34               7                  20.59%            27      97
45   South Carolina     214         117              23                  19.66%            94     308
46   South Dakota       261         129              30                  23.26%            99     360
47   Tennessee          763          267              55                 20.60%            212     975
48   Texas              988         2960            144                   4.86%           2816   3804
49   Utah               174         386               2                   0.52%           384     558
50   Vermont            67           10               7                  70.00%             3      70
51   Virgin Islands     19           69               2                   2.90%            67      86
52   Virginia          1099        3252             120                  3.69%           3132    4231
53   Washington         761        2974              85                   2.86%          2889    3650
54   West Virginia      240         292              11                   3.77%           281      521
55   Wisconsin          517         6667             38                   0.57%           6629    7146
56   Wyoming            161         217               9                   4.15%           208      369
57   Unlisted            -            -               -                      -              -       20
     Totals            31963       48701            3846                 7.90%           44855   77069




                                    Progress in Developing the National Asset Database

                                                           47
Appendix G
Major Contributors to this Report




William J. McCarron, Chief Inspector
Carlton Mann, Chief Inspector
Russell Lundberg, Inspector




        Progress in Developing the National Asset Database

                               48
Appendix H
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
General Counsel
Chief of Staff
Deputy Chief of Staff
Assistant Secretary, Policy
Assistant Secretary, Public Affairs
Executive Secretariat
Assistant Secretary for Infrastructure Protection
Assistant Secretary for Grants and Training
DHS OIG Liaison
Audit Liaison, Preparedness
Assistant Secretary, Legislative and Intergovernmental Affairs

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




        Progress in Developing the National Asset Database

                               49
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
